HHS/OIG, Audit - "Claims Paid Under Title IV-E Foster Care Program for
Children in Castille Contracted Detention Facilities From October 1, 1997, to
September 30, 2002," (A-03-05-00550)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Claims
Paid Under Title IV-E Foster Care Program for Children in Castille Contracted
Detention Facilities From October 1, 1997, to September 30, 2002," (A-03-05-00550)
September 20, 2007
Complete
Text of Report is available in PDF format (5.06 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Pennsylvania Department of Public Welfare (the State
agency) did not always claim Title IV-E maintenance and associated
administrative costs for Philadelphia Countys Castille program in accordance
with Federal requirements.  Based on the sample results, we estimated that the
State agency improperly claimed $7,090,323 in Title IV-E maintenance costs.
Including associated administrative costs of $4,521,499, we estimated that the
State agency improperly claimed at least $11,611,822 of the total $28,424,124
(Federal share) claimed for Title IV-E reimbursement on behalf of the Castille
program.
We recommended that the State agency (1) refund to the Federal Government
$11,611,822 in unallowable costs for the period October 1997 through September
2002, (2) work with ACF to determine the allowability of the remaining
$16,812,302 claimed, (3) work with the Administration for Children and Families
(ACF) to identify and resolve any unallowable
Castille program claims made after September 2002 and refund the appropriate
amount, and (4) discontinue claiming Title IV-E reimbursement for ineligible
services and children.  The State agency disagreed with the recommendations.